        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report

Status Report: The Department of
Energy's State Energy Program
Formula Grants Awarded under the
American Recovery and
Reinvestment Act




OAS-RA-10-17                     September 2010

                                   Department of Energy
                                      Washington, DC 20585

                                         September 21, 2010


MEMORANDUM FOR THE SECRETARY


FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: "Status Report: The Department of Energy's State
                          Energy Program Formula Grants Awarded under the American
                          Recovery and Reinvestment Act"

BACKGROUND

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), the Department of
Energy's (Department) Office of Energy Efficiency and Renewable Energy (EERE) received
$3.1 billion to be distributed through the State Energy Program (SEP) to stimulate the economy
by creating and preserving jobs while increasing energy efficiency and the use of renewable
energy. Under the authorizing legislation for the SEP, the 50 states, 5 territories, and the District
of Columbia (states) had a degree of flexibility to design and implement programs that met their
specific energy needs and goals. In response to a Department solicitation, the states prepared
plans summarizing energy related programs and projects planned for the SEP Recovery Act
funds. After reviewing those plans, EERE awarded Recovery Act funding to the states for
approved projects consistent with the goals of the program. The $3.1 billion awarded through the
Recovery Act was a dramatic increase over the $25 million appropriated for this Program in
Fiscal Year 2009.

As we observed in our recent Special Report on Progress in Implementing the Department of
Energy's Weatherization Assistance Program Under the American Recovery and Reinvestment
Act (OAS-RA-10-04, February 2010), despite significant effort by the Department, a number of
impediments inhibited progress of the program. Similar regulatory issues faced states as they
sought to use SEP Recovery Act funding not only to support current energy efficiency and
renewable energy projects, but also to fund sustainable initiatives and put in place programs
reflecting long-term market transformation. Because of the importance of this program, we
initiated this audit to assess the adequacy of the Department's efforts to ensure that the goals of
the SEP and Recovery Act are met efficiently and effectively.

RESULTS OF AUDIT

We concluded that the Department had taken a reasonable, risk-based approach to the award and
management of SEP grants. Yet, as we have observed in other, similar grant programs, and in
spite of efforts by program officials, a number of impediments adversely impacted SEP spending
rates, and, thus, had prevented the program from achieving significant economic and energy
savings benefits. In particular, compliance with various regulatory requirements had slowed
spending. As of July 9, 2010, 74 percent of the $3.1 billion in SEP Recovery Act funding had
been approved for spending, but of that amount, only about 7.2 percent had actually been
expended. We also identified issues and challenges with preparing projected and reported
energy savings for the SEP. Finally, we noted that while EERE had taken action to address
project monitoring shortfalls, at the state level several monitoring plans remained incomplete.

Use of Recovery Act Funding by the States

Even though the Department had granted authority to expend funds as early as May 2009, actual
spending at the state level had been lethargic, adversely impacting planned increases in energy
efficiency and economic benefits, both of which are critically important to the Nation. The
following chart details the status of obligations and spending by the 10 states with the largest
SEP Recovery Act grants:

      State         Recovery Act             Obligated as of                Spent as of
                      Funding                  July 9, 2010                July 14, 2010
                                          Amount           Percent   Amount             Percent
 California            $226,093,000       $188,378,200         83%   $27,848,917             12.3%
 Texas                 $218,782,000       $149,850,253         68%    $1,296,903              0.6%
 Florida               $126,089,000        $84,268,740         67%   $14,470,358             11.5%
 New York              $123,110,000       $102,270,067         83%    $3,065,251              2.5%
 Illinois              $101,321,000        $83,226,903         82%    $4,595,607              4.5%
 Pennsylvania           $99,684,000        $84,881,163         85%   $22,574,374             22.6%
 Ohio                   $96,083,000        $50,081,803         52%    $1,012,032              1.1%
 Georgia                $82,495,000        $80,706,411         98%    $1,004,507              1.2%
 Michigan               $82,035,000        $68,630,000         84%    $7,822,529              9.5%
 North Carolina         $75,989,000        $18,239,235         24%    $6,294,123              8.3%
 Total               $1,231,681,000       $910,532,775         74%   $89,984,601              7.3%

Attachment 1 to this report provides SEP obligation and spending data for all 56 recipients.

Responsible Federal program officials argued that actual expenditures are a "lagging indicator"
of economic activity, asserting that the economic activity that led to the expenditure was
completed 2 to 3 months prior. It was management's position that obligations are a better
indicator – that is, contracts are in place such that workers can be hired and economic activity
can begin. We acknowledge that obligating funds to the states provides them with the authority
to spend money to create jobs which, in the case of the Recovery Act, could take place over
several years. However, we concluded that actual expenditures – payroll, equipment and
construction material purchases, inventory acquisition, etc. – are a better benchmark by which to
gauge the economic progress or activity generated by the SEP.

                                      Factors Impacting Spending

The Recovery Act established certain regulatory requirements which had not previously affected
the SEP and have contributed to delays in the obligation and spending of Recovery Act funds.
Specifically, as with the Weatherization Assistance and Energy Efficiency and Conservation
Block Grant programs, four existing laws that had not previously affected the activities funded
through the SEP are now affecting the larger projects funded under the Recovery Act. These
include the Davis-Bacon Act, National Historic Preservation Act, Buy American provisions of

                                                  2

the Recovery Act, and National Environmental Policy Act (NEPA). According to management,
NEPA affected SEP Recovery Act projects because states chose to pursue larger, more complex
projects than they had previously managed under much more limited funding. In the past, state
projects were so small they typically were "categorically excluded" from NEPA requirements.
However, with the additional Recovery Act funding, states proposed larger, more complex
projects that required more thorough consideration of the potential environmental impacts. In
general, these four laws delayed progress because the states had to implement additional controls
to ensure that the new requirements would be met.

While management has, for the most part, implemented controls relative to these four laws,
delays from the NEPA review process continue. While projects can be categorically excluded
from NEPA when their environmental impacts are low, one state noted that such approvals were
not always received from the Department in a timely manner. Conversely, some exclusions were
not received quickly because untimely or inaccurate information was provided by the states.
When categorical exclusion is not possible, the project requires an Environmental Assessment or
an Environmental Impact Statement, which can take from a few months to more than a year to
complete, at significant cost. Recognizing the delays due to NEPA compliance activities, in
August 2009, the Department provided draft NEPA guidance to the states to help them better
understand the Department's environmental review process and provided information to assist in
that review, including a template and environmental questionnaire. This guidance was
completed and formally issued in December 2009. With this new guidance, approval times have
decreased, on average, from 2 to 3 months to 2 to 3 weeks.

After early delays, as of July 15, 2010, about 80 percent of SEP projects had been categorically
excluded from NEPA requirements. However, continuing focus will be necessary if remaining
SEP funds are to be obligated at the state level before the September 30, 2010, obligation
deadline established by the Department. Notably, as shown in the following chart, 2 of the top
10 grantees – Florida and North Carolina – had projects, to which more than 40 percent of their
funds were allocated, waiting for some NEPA action. Additionally, besides these NEPA delays,
according to management, some of these projects are still under review for SEP eligibility and
additional information is required on others.

           State            Recovery Act         Total SEP Funding Awaiting NEPA Action
                              Funding                          July 15, 2010
                                                Amount Remaining           Percent of Funding
  California                   $226,093,000                         $0                      0%
  Texas                        $218,782,000                 $9,603,904                      4%
  Florida                      $126,089,000                $61,436,511                     49%
  New York                     $123,110,000                $15,000,000                     12%
  Illinois                     $101,321,000                $30,505,532                     30%
  Pennsylvania                  $99,684,000                $31,562,234                     32%
  Ohio                          $96,083,000                $35,130,000                     37%
  Georgia                       $82,495,000                 $2,114,137                      3%
  Michigan                      $82,035,000                 $3,000,000                      4%
  North Carolina                $75,989,000                $50,120,255                     66%
  Total                      $1,231,681,000               $238,472,573                   19%




                                                3

When we discussed these concerns with management, program officials agreed that the
application of NEPA to SEP projects created significantly increased workloads for the states and
the program. However, management stated that other factors contributed to the delays in
expenditures. A significant factor was the time required by the competitive process. Unlike the
Weatherization Assistance Program, most SEP Recovery Act funding was competitively bid,
with most funds targeted to buildings and property that was not owned by the state. So,
following initial NEPA clearance, states entered into their own contract administration processes.
The competitive process added 4 to 6 months to the time required to obligate funds at the project
level.

Energy Savings Estimates

We also observed that efforts to estimate energy savings associated with the SEP projects were
not completely reliable. For example, the sum of the states' estimates for anticipated energy
savings was 88 billion MBtus based on their initial proposed SEP projects. However, our review
of this estimate found that it contained a number of errors and inconsistencies. Management
agreed, pointing out that the estimate was not realistic or achievable since the United States' total
energy consumption is estimated at 100 billion MBtus. Accordingly, since management
concluded that this goal was unrealistic and unachievable, the Department elected not to use the
states' initial estimated energy savings.

Five months after the states submitted their initial plans, the Department developed and deployed
an energy savings estimating spreadsheet tool that provided the states with a means to calculate
their energy savings. According to Department officials, some states are using the calculator, but
they cannot confirm the extent of usage. The Department's project officers have been asked to
verify the estimated energy savings during their reviews of state plans. States' use of the
Department's energy savings calculator should help reduce some of the inconsistencies we
observed in reporting significantly varying savings for what appeared to be very similar projects.

Energy saving is one of the key performance figures reported to the Secretary every quarter for
the SEP. Management recognizes the challenges it faces in obtaining reliable data for this
program. Management has informed us that it has plans to begin a national evaluation of SEP
Recovery Act funds, which should yield quantifiable and reliable information regarding the
energy savings that have been achieved from the entire portfolio of projects and programs
implemented by the states. The study will also assess the job creation and emissions reductions
that have resulted from state Recovery Act programs.

Staffing and Monitoring

When the Recovery Act was enacted, the SEP only had seven project officers responsible for
oversight. As a result of the insufficient staffing levels, the Department had not monitored state
activities, as required. Prior to the passage of the Recovery Act, the project officers were
required to visit each state once every 3 years and perform desktop monitoring of state
quarterly/semiannual reports. However, during our review we found that seven states had not
been visited in 5 years or more. These monitoring efforts fell short of the Department's
requirements established prior to the passage of the Recovery Act. To ensure that the large

                                                  4

amounts of Recovery Act funds were accounted for and used properly, EERE strengthened the
monitoring requirement for its project officers by requiring them to visit each state annually.

To address the critical shortage in manpower for project officer duties, the Department has since
hired 13 additional project officers. With its recent increase in project officer staffing, it has
increased monitoring efforts at the states. As of May 31, 2010, the Department has performed
on-site monitoring at 19 states and plans to perform the required monitoring at the remaining
states by the end of Fiscal Year 2010. Even though some project officers have not yet visited the
states for which they are responsible, we were told that other types of monitoring have been
performed and the project officers have been in weekly contact with those states and have
assisted them in trying to get projects approved and started.

While the increase in staffing and monitoring is a positive step, the Department has yet to issue
guidance to all states on their monitoring requirements. The states are required to perform
monitoring of their grantees; however, our review found inconsistencies in seven state
monitoring plans. Four of these states did not have a monitoring plan in place and the others had
incomplete monitoring plans. As greater amounts of funding are provided to the grantees,
Departmental guidance on monitoring their progress will be critical. Inadequate monitoring by
either the Department or the states could seriously undermine the efficient and effective use of
the large infusion of SEP Recovery Act funds.

PATH FORWARD

Departmental officials concurred with our observation that the challenges faced in implementing
the expanded SEP were greater than originally anticipated. Despite a number of efforts by the
Department, this program had to overcome a number of impediments and has been slow in
spending appropriated funds. As a direct result, the SEP expansion under the Recovery Act has
yet to save or create a significant number of jobs or stimulate the U.S. economy. Program
execution was delayed by the need for all participants, including Federal and state governments,
to build a framework that permitted compliance with applicable regulations while effectively
adjusting to a rapid and overwhelming increase in funding.

As the Department continues its effort to address and resolve these challenges, it appears likely
that the pace of funds obligation and actual expenditures will be expedited and that the funds will
actually be spent within the statutory timeframe available under the Recovery Act. However,
continuing attention of senior officials is essential if the Department is to properly address these
challenges.

MANAGEMENT COMMENTS

EERE partially concurred with our audit results, reiterating its assertion that obligations are a
better indicator of program success under the Recovery Act than expenditures. EERE
management added that they have undertaken several proactive strategies to accelerate project
implementation among the states including: the development of an on-line management tool to
forecast monthly expenditures; providing a variety of technical assistance including program
guidance, financing program support, training opportunities and best practice recommendations;


                                                 5

dedicating NEPA resources to ensure that projects comply with environmental review
requirements; and, implementing a robust state monitoring plan. Management plans to issue
sub-recipient monitoring guidance by September 2010, and has taken steps to streamline
reporting requirements. Management's comments in their entirety are included in Appendix 4.

AUDITOR RESPONSE

Management's comments are responsive to the audit results. During the exit conference,
management informed us that sub-recipient monitoring guidance was expected to be issued
during the week of September 20, 2010. We believe that the completion of this important
control is a further indication of management's commitment to the success of this program.

cc: 	 Deputy Secretary
      Under Secretary of Energy
      Assistant Secretary, Energy Efficiency and Renewable Energy, EE-1
      Chief of Staff

Attachments




                                               6

                                                                                             Attachment 1
  FUNDING, OBLIGATIONS, EXPENDITURES, AND PLANNED ENERGY SAVINGS


   State/Territory        ARRA         Obligated as of July 9,      %         Spent as of        % Spent
                         Funding               2010              Obligated   July 14, 2010
Alaska                 $ 28,232,000                 $4,382,000         16%                  $0        0.0%
Alabama                   55,570,000              $30,570,000          55%            $661,994        1.2%
Arkansas                  39,416,000              $32,087,707          81%          $6,245,105       15.8%
American Samoa            18,550,000              $18,346,381          99%          $1,504,628        8.1%
Arizona                   55,447,000              $52,354,842          94%          $2,035,666        3.7%
California               226,093,000             $188,378,200          83%         $27,848,917       12.3%
Colorado                  49,222,000              $19,778,835          40%          $5,175,648       10.5%
Connecticut               38,542,000              $38,542,000         100%         $10,747,695       27.9%
District of Columbia      22,022,000              $20,161,073          92%            $260,714        1.2%
Delaware                  24,231,000              $24,231,000         100%         $10,908,753       45.0%
Florida                  126,089,000              $84,268,740          67%         $14,470,358       11.5%
Georgia                   82,495,000              $80,706,411          98%          $1,004,507        1.2%
Guam                      19,098,000                $6,386,000         33%            $956,168        5.0%
Hawaii                    25,930,000              $22,214,060          86%          $1,236,484        4.8%
Iowa                      40,546,000              $36,016,102          89%            $563,832        1.4%
Idaho                     28,572,000              $23,322,207          82%          $8,006,625       28.0%
Illinois                 101,321,000              $83,226,903          82%          $4,595,607        4.5%
Indiana                   68,621,000              $35,371,000          52%            $471,056        0.7%
Kansas                    38,284,000              $35,825,647          94%          $1,790,856        4.7%
Kentucky                  52,533,000              $50,050,998          95%          $3,135,062        6.0%
Louisiana                 71,694,000              $59,872,318          84%          $1,052,942        1.5%
Massachusetts             54,911,000              $53,200,000          97%         $11,446,546       20.8%
Maryland                  51,772,000              $38,853,671          75%          $3,064,579        5.9%
Maine                     27,305,000              $20,160,300          74%          $2,800,000       10.3%
Michigan                  82,035,000              $68,630,000          84%          $7,822,529        9.5%
Minnesota                 54,172,000              $36,077,858          67%          $8,223,765       15.2%
Missouri                  57,393,000              $24,918,197          43%          $1,021,221        1.8%
Northern Marianas         18,651,000              $11,000,000          59%            $310,236        1.7%
Mississippi               40,418,000              $22,936,470          57%          $3,498,932        8.7%
Montana                   25,855,000              $24,398,985          94%          $3,482,185       13.5%
North Carolina            75,989,000              $18,239,235          24%          $6,294,123        8.3%
North Dakota              24,585,000              $12,576,484          51%            $261,000        1.1%
Nebraska                  30,910,000                $4,232,420         14%            $605,293        2.0%
New Hampshire             25,827,000              $23,076,998          89%          $1,051,308        4.1%
New Jersey                73,643,000              $48,670,000          66%                  $0        0.0%
New Mexico                31,821,000              $23,009,156          72%          $4,413,577       13.9%
Nevada                    34,714,000              $25,365,900          73%          $1,263,033        3.6%
New York                 123,110,000             $102,270,067          83%          $3,065,251        2.5%
Ohio                      96,083,000              $50,081,803          52%          $1,012,032        1.1%
Oklahoma                  46,704,000              $31,408,222          67%          $2,076,955        4.4%
Oregon                    42,182,000              $34,367,918          81%            $502,831        1.2%
Pennsylvania              99,684,000              $84,881,163          85%         $22,574,374       22.6%
Puerto Rico               37,086,000              $33,762,544          91%          $1,139,087        3.1%
Rhode Island              23,960,000              $16,863,046          70%            $303,751        1.3%
South Carolina            50,550,000              $46,973,248          93%          $5,117,332       10.1%
South Dakota              23,709,000              $22,234,530          94%          $1,188,757        5.0%
Tennessee                 62,482,000              $60,276,682          96%                  $0        0.0%
Texas                    218,782,000             $149,850,253          68%          $1,296,903        0.6%
Utah                      35,362,000              $25,527,713          72%          $3,104,434        8.8%
Virginia                  70,001,000              $49,891,000          71%         $13,216,950       18.9%
Virgin Islands            20,678,000              $11,084,809          54%          $1,455,723        7.0%
Vermont                   21,999,000              $18,216,705          83%            $248,439        1.1%
Washington                60,944,000              $27,967,761          46%          $3,069,279        5.0%
Wisconsin                 55,488,000              $55,488,001         100%          $1,826,763        3.3%
West Virginia             32,746,000              $32,424,897          99%          $2,561,452        7.8%
Wyoming                   24,941,000              $16,764,187          67%            $267,544        1.1%
Totals                 3,069,000,000           $2,271,772,647          74%        $222,258,803        7.2%




                                                        7

                                                                                    Attachment 2
                       OBJECTIVE, SCOPE, AND METHODOLGY


OBJECTIVE

The objective of this audit was to determine the adequacy of the Department of Energy's
(Department) efforts to ensure that the goals of the State Energy Program (SEP) and the
American Recovery and Reinvestment Act of 2009 (Recovery Act) are met efficiently and
effectively.

SCOPE

The audit was performed from June 2009, to July 2010 at Department Headquarters in
Washington, DC; the Golden Field Office in Golden, Colorado; and, the National Energy
Technology Laboratory in Pittsburg, Pennsylvania.

METHODOLOGY

To accomplish the audit objective, we:

        Reviewed Federal laws, regulations and Departmental guidance related to the State
        Energy Program and American Recovery and Reinvestment Act;

        Determined roles and responsibilities of key personnel;

        Held discussions with program officials from Headquarters, the Golden Field Office,
        and the National Energy Technology Laboratory;

        Analyzed internal controls at the program level;

        Analyzed financial, oversight, and other performance information relative to the audit
        objective; and,

        Summarized our conclusions regarding the management of the State Energy Program.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Accordingly, we assessed
significant internal controls and the Department's implementation of the Government
Performance and Results Act of 1993 and determined that it had established performance
measures for the efficient and effective management of the SEP and the Recovery Act. Because
our review was limited, it would not necessarily have disclosed all internal control deficiencies
that may have existed at the time of our audit. Finally, we did not rely on computer-processed
data to accomplish our audit objective.

An exit conference was held with Department officials on September 17, 2010.

                                                8

                                                                               Attachment 3


                         RELATED AUDIT REPORTS

The Department of Energy's American Recovery and Reinvestment Act – Florida State
Energy Program (OAS-RA-10-12, June 2010). Our review determined that weaknesses
in the implementation of State Energy Program (SEP) American Recovery and
Reinvestment Act of 2009 (Recovery Act) projects had impacted and likely will continue
to impact Florida's ability to meet the goals of the SEP and the Recovery Act.
Specifically, Florida used approximately $8.3 million to pay for activities that did not
meet the intent of the Recovery Act to create new or save existing jobs. Additionally,
Florida did not meet state goals to obligate all Recovery Act funds by January 1, 2010,
thus delaying projects and preventing them from achieving the desired stimulative,
economic impact. We also found that Florida had not ensured that 7 of the 18 award
requirements promulgated by the Department of Energy (Department) had been passed
down to sub-recipients of the award, as required. Further, we identified internal control
weaknesses in the State's Solar Energy System Incentives Program that could jeopardize
the program and increase the risk of fraud, waste, and abuse. In response to our review,
Florida took corrective action to incorporate the additional award requirements in sub-
recipient documents and instituted additional controls to correct the internal control
weaknesses we identified.

Management Controls over the Department of Energy's American Recovery and
Reinvestment Act – Louisiana State Energy Program (OAS-RA-10-09, May 2010). Our
review identified certain risks associated with Louisiana's implementation of the Recovery
Act that could impact its ability to meet the goals of the SEP and the Recovery Act.
Specifically, the state had not: Established controls to prevent double payments for Recovery
Act energy conservation rebates to individuals who may have been approved or received
payment under an existing state rebate program; developed contingency plans to replace
projects in the event that they did not receive timely National Environmental Policy Act
(NEPA) approval to enable the expenditure of Recovery Act funds before the April 2012
performance deadline; or, fully documented and monitored, in the past, the status of
internally managed SEP projects as required by both Office of Energy Efficiency and
Renewable Energy (EERE) and Louisiana policies and procedures. We concluded that
Louisiana's ability to meet the SEP Recovery Act objectives in a transparent manner could be
hindered unless it successfully addressed the above risks.

Progress in Implementing the Department of Energy's Weatherization Assistance
Program Under the American Recovery and Reinvestment Act (OAS-RA-10-04, February
2010). We found that grantees had made little progress in implementing the program. A
full year after the passage of the Recovery Act, only a small percentage of funds had been
spent and very few homes had been weatherized. In particular, less than 8 percent of the
funds available for expenditure had been spent and only about 5 percent of the homes
targeted for weatherization had been weatherized. Impediments to progress included the
need to implement newly applicable Davis Bacon Act wage requirements; insufficient
resources at the state level; and, delays in the development of effective training programs.




                                          9

                                                                 Attachment 3 (continued)



Management Controls over the State Energy Program's Formula Grants (OAS-M-06-05,
April 2006). The Department did not regularly perform onsite monitoring of state Energy
Offices to ensure that grant funds were being used for their intended purpose. Although
EERE's State Energy Program Operations Manual called for Regional Offices to
perform at least one formal site visit to each state per year, EERE did not ensure that the
Regional Offices followed this guidance. Further, at the time of the audit, EERE had not
specified how it would assign responsibility for or staff the Program monitoring function
within the Golden Field Office and National Energy Technology Laboratory. In addition,
the Department had not established or collected meaningful performance metrics to
determine the cost/benefit of the Program in meeting its goals. Although the SEP is
intended to contribute to percentage improvements in energy efficiency, the Department
had not identified specific improvements expected directly from SEP. Furthermore, while
states were required to provide estimates of energy savings in annual plans supporting
grant applications, the Department did not validate or compare actual results to those
planned. EERE officials stated that they recognized the need for more definitive,
quantifiable performance metrics and were working to develop them in conjunction with
the states.




                                        10

                                  Department of Energy
                                       Washington, DC 20585



                                          AUG 3 I 2010
MEMORANDUM FOR:                   RICKY R. HASS
                                  DEPUTY INSPECTOR GENERAL
                                  FOR AUDIT SERVICES
                                  OFFICE OF INSPECTOR GENERAL

FROM:                             KATHLEEN     HOGAN~AD,(
                                  DEPUTY   ASSISTA~~~­
                                  FOR ENERGY EFFICIENCY
                                  OFFICE OF TECHNOLOGY DEVELOPMENT
                                  ENERGY EFFICIENCY AND RENEWABLE ENERGY

SUBJECT:                          Response t o Office of Inspector General Draft
                                  Audit Report on " The Department of Energy's Stat e
                                  Energy Program Formula Grants Awarded under the American
                                  Recovery and Reinvestment Act: A Status Report"

The Office of Energy Efficiency and Renewable Energy (EERE) appreciates the opportunity to
review the Office of Inspector General's (IG) draft audit report "The Department of Energy's
State Energy Program Formula Grants Awarded under the American Recovery and Reinvestment
Act: A Status Report."

We partially concur with t he audit results.

EERE emphasizes that payments drawn down by recipients is not the best measure in
determining whether the State Energy Program is meeting its American Recovery and
Reinvestment Act (ARRA) goals.
                              ,
Obligations by grantees to sub-recipients are a better indicator that projects are moving forward
and work is being done. Payments are a lagging indicator and can lag project completion by
several months.

EERE has undertaken several proactive strategies to accelerate project implementation among
the 50 States, 5 territories, and the District of Columbia (States). Of critical importance, we have
developed an on-line management tool, the "Plan Workbook," which States are using to
forecast their monthly expenditures for the 36-month grant period. To date, fifty-two of the
fifty-six grantees have eithe r commenced or completed forecasts accounting for 80% of total
program funds awarded under the American Recovery and Reinvestment Act. Our project
officers and management are already acting upon this information to ensure that projects are
implemented and completed as planned.

Utilizing the Plan Workbook, performance dashboards and other management tools, we are
working closely with States to identify barriers to performance and to develop specific action
plans to resolve issues. Senior EERE management and their State counterparts have




                                  ®     Printed wi1t1 fO'I ink on ...cycled paper
                                                                                                    2


participated in the development of these action plans, both during phone calls and on-site visits.
To assist States, we are providing a variety of technical assistance including program guidance,
financing program support, training opportunities and best practice recommendations. We
continue to provide dedicated NEPA resou rces to ensure that projects comply with
environmental review requirements. We have also increased the number of project officers
managing State Energy Program grants. We believe these actions will accelerate project
implementation and payments.

We continue to implement a robust pla n for the mon itoring by DOE a/States. Where the need
for corrective action is identified, this plan calls for the provision of technical assistance to
grantees. To address monitoring by States, DOE expects to issue sub-recipient monitoring
guidance in September 2010.

To help generate reliable energy savings data, DOE has streamli ned reporting requirements.
State monthly reporting will now focus on expenditures but will exclude performance metrics .
The overall reduction in the reporting burden is expected to enable States to improve the
quality of the performance metrics reporting now due on a quarterly basis only. The National
Program Eva luation will ensure consistent measurement of the energy saved by States during
the Recovery Act period.

The latest available information (August 30, 2010) indicates the following overall SEP
performance:

        •   $2.68 billion (87% of total funding) categorically excluded from NEPA requirements;
        •   $ 2.31 billion (75%) of funds obligated by States; and
        •   $386.3 million (12.6%) in payments, i.e., funds drawn down by the State.

It is important to note that the 75% in obligations represents contracts that have been executed
and projects that are underway. These projects have created or retained jobs and are impacting
the economic recovery today. Since the end of July 2010, week-over-week SEP payments have
increased by at least 5 percent.

The Department has tracked individual State progress to meet obligations milestones over the
last six months. The following demonstrates this progress:

• 35 states reached (pro-rata) program milestone of SlB funds obligated by grantees by March
30 (milestone = 33%).

• 26 states reached (pro-rata) program milestone of $2.sB in funds obligated by grantees by
June 30 (milestone = 80%) .

• All states are on track to spend funds during term of the award, in compliance with the terms
of their award.

Should yo u have any questions, please contact Mark Bailey at 202-586-9424.
                                                             IG Report Number: OAS-RA-10-17

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1.	 What additional background information about the selection, scheduling, scope, or
    procedures of the inspection would have been helpful to the reader in understanding this
    report?

2.	 What additional information related to findings and recommendations could have been
    included in the report to assist management in implementing corrective actions?

3.	 What format, stylistic, or organizational changes might have made this report's overall
    message more clear to the reader?

4.	 What additional actions could the Office of Inspector General have taken on the issues
    discussed in this report which would have been helpful?

5.	 Please include your name and telephone number so that we may contact you should we have
    any questions about your comments.


Name 	                                        Date

Telephone	                                    Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 586-7013.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
